                                                              UNITED STATES DEPARTMENT OF COMMERCE
                                                             The Inspector General
                                                             Waslllngion. 0 C. 20230



January 23, 20 14


The Honorable Greg Walden                          The Honorable Cory Gardner
Chairman, Subcommittee on                          Subcommittee o n Co mmunications
 Communications and Technology                      and Technology
Committee on Energy and Commerce                   Committee on Energy and Commerce
2125 Rayburn House Office Building                 2125 Rayburn House Office Building
Washington, DC 20515                               Washingto n, DC 2051 S

The Honorable Scott Tipton
U.S. House of Representatives
218 Cannon House Office Building
Washington, DC 205 15

Dear Chairman Walden, Representative Gardner, and Representative Tipton:

This letter is in response to your May 9, 20 13, request to review the National
Telecommunications and Information Administration's (NTIA's) Broadband Technology
Opportunities Program (STOP) grant awarded to EAGLE-Net Alliance (ENA). We appreciate
the Committee's continued commitment to effective oversight of STOP. the Department's
largest Recovery Act-funded program.

In response to your request, we reviewed the application submitted by the Centennial Board of
Cooperative Educational Services (CBOCES): award amendments, including the transfer of the
award to ENA: Award Action Request approvals; and other documentation associated with the
implementation of the award. Additionally. we met with NTIA program and ENA project
personnel and reviewed documentation supporting oversight of the award . We also
interviewed representa tives of incumbent telecom providers.

Your letter requested that we review the award and provide responses to 7 questions related
to the ENA grant. In enclosure I, we provide some background information on the grant,
responses to your questions. and some additional issues noted during our review. Enclosure 2
outlines the objective, scope, and methodology of our inspection. Enclosure 3 provides details
regarding three major geographic areas where ENA's market presence was disputed by other
service providers.
If you have any questions or require further analysis of this matter, or if we can be of further
assistance, please do not hesitate to contact me at (202) 482-4661, or Ann Eilers, Principal
Assistant Inspector General for Audit and Evaluation, at (202) 482-2754.




cc:   Members of the Subcommittee on Communication and Technology
      Members of the Committee on Energy and Commerce
      Lawrence E. Strickling, Assistant Secretary for Communications and Information,
       Department of Commerce




                                                 2
Enclosure 1: Review of the National Telecommunications and Information
Administration’s Broadband Technology Opportunities Program Grant Award to
EAGLE-Net Alliance

In September 2010, NTIA awarded a $100.6 million grant to CBOCES with the goal to bring
affordable, high-capacity broadband services to rural and underserved school districts and other
community anchor institutions (CAIs) (e.g., libraries, universities, community colleges, and
hospitals) across Colorado. Immediately after accepting the award, the grant recipient began
the process of transferring the grant to ENA, one of its operating units, to focus efforts on
linking educational institutions to a network. The transfer was approved by NTIA and the
National Oceanic and Atmospheric Administration (NOAA) Acquisition and Grants Office in
February 2011. 1 Table 1 below provides an overview of the awarded grant.

              Table 1. Sources of Funding for CBOCES/ENA BTOP Award
                                           Dollar Amount            Percent of Project
                 Federal share                $100,635,190                    74
                 Recipient share               $34,665,587                    26
                    Total                     $135,300,777                   100
               Source: Department of Commerce Grants Online

Between January and December 2012, ENA made unapproved changes to its network plan,
moving from a primarily microwave network to a predominately fiber-optic network comprised
of new and leased fiber and some components of microwave. It based these actions on
feedback from CAIs, who considered fiber-optic networks more reliable than microwave. ENA
also reduced the number of CAIs it planned to reach with award funds from 234 to 131. 2
ENA’s management stated that the reduction in the number of CAIs was necessary because
loans it had counted on to use as matching funds did not become available and grant funds
would be insufficient to cover the cost of reaching all approved CAIs. Thus, ENA will require
funding beyond the grant award to reach the remaining 92 approved CAIs. Changing from a
predominantly microwave network to a mostly fiber based network came as a surprise to some
providers in the southeast region of the state, who have voiced complaints because they also
provide fiber-based broadband services in that region and ENA would now become a
competitor.

As of July 1, 2013, ENA had spent approximately 90 percent of its grant funds and connected
102 CAIs and 2 additional schools. On October 22, 2013, ENA selected Affiniti of Colorado as
their network operator via an invitation to negotiate (ITN) process. ENA officials have said
their intention is that the network will eventually be expanded to provide the connections
identified in the award as amended in May 2013; however, ENA may not reach all CAIs within
the grant period.


1
 NOAA provides grant management services to NTIA for the BTOP infrastructure awards, including ENA.
2
 The approved CAI count now stands at 223 due to the merging of 2 CAIs and the elimination of 10 overlapping
CAI locations; however, ENA’s plan is to reach only 131using federal funds.


                                                      3
                                                                                Figure 1. Corrective
ENA has experienced challenges in such areas as meeting                        Action and Suspension
award match requirements, project management, and financial                    Chronology for ENA’s
controls. Consequently, since the issuance of the award, NTIA                       BTOP Grant
has had to provide substantial oversight. Figure 1, provided by
NTIA, identifies NTIA oversight actions. This has included                     April 2011: NTIA site visit results in
                                                                               a Project Improvement Plan to address
multiple site visits, technical assistance, and placing the                    issues with project schedule,
recipient on a corrective action plan. Ultimately, NTIA                        deficiencies in financial management
                                                                               and grant management policies and
suspended the award in December 2012 due to the grantee’s                      procedures.
failure to comply with the special award condition related to
environmental and historic compliance, an action that could
have eventually resulted in termination of the award. NTIA                     January 2012: NTIA becomes aware
subsequently lifted the suspension in April 2013 after the                     of an unauthorized ENA route change.
grantee had addressed this issue. While the deficiency resulting
in suspension had been identified earlier by NTIA, the bureau
did not promptly address it and instead focused its efforts on                  May 2012: NTIA becomes aware of
                                                                                ENA's further modification: network
addressing the considerable challenges related to matching                      now predominately fiber, not the
share, project management, and financial controls.                              approved, predominantly wireless,
                                                                                network.

Members of the Subcommittee on Communications and
Technology of the House Committee on Energy and
                                                                                June 2012: NTIA site visit identifies
Commerce raised concerns about ENA’s BTOP grant at a                            concerns with ENA's match
February 27, 2013, hearing. 3 Additionally, the grant received                  requirement, recorded costs, financial
                                                                                controls, budget, and sustainability.
extensive media coverage. 4                                                     Site visit report states that ENA plans
                                                                                to submit route modification approval
Response to Congressional Questions                                             request.


1. At the time of transfer from the CBOCES, how did
   ENA change the planned network design in the                                 August 2012: Grants Office notified
                                                                                ENA of Corrective Action Plan (CAP)
   original NTIA award? How has the planned                                     to address problems with financial
   network design changed during ENA's                                          controls and questionable costs,
                                                                                match, and budget. Route modification
   administration of the award?                                                 was not included in the CAP.

    We determined that no changes were made to the
    network design at the time of the transfer to ENA.                           December 2012: ENA’s grant is
    CBOCES accepted the NTIA BTOP grant award on                                 suspended.
    September 16, 2010. NOAA’s Grants Office finalized the
    transfer of the award to ENA on February 14, 2011.
                                                                                 April 2013: ENA’s suspension lifted
                                                                                 after NTIA issued a Finding of No
    The CBOCES award and supporting documentation,                               Significant Impact regarding design
    including the network design, was transferred to ENA                         modifications; however, ENA must
                                                                                 continue to obtain approval to access
                                                                                 funds.

3
  House Energy and Commerce Committee, Subcommittee on Communications and Technology, “Is the
Broadband Stimulus Working?” February 27, 2013.
4
  For example: “Colorado’s Grant Windfall Earns Ire,” Telcos News, August 20, 2012; “Stimulus-funded Project Irks
Some Rural Telecoms in Colorado,” Denver Business Journal, September 7, 2012; “Waste is Seen in Program to
Give Internet Access to Rural US,” New York Times, February 11, 2013; “Congress to Review Suspended Eagle-Net
Broadband Project Next week,” The Denver Post, February 22, 2013.


                                                        4
    unchanged. The original network design included a total of 4,729 network miles, comprised
    of 316 new fiber miles, 1,378 upgraded 5 and exitisting dark fiber leased miles, 6 and 3,035
    microwave miles, as well as the connection of 234 CAIs. ENA did not submit a final
    network design change to NTIA until April 22, 2013, which was then approved by the
    NOAA Grants Office on May 7, 2013 after NTIA issued a Finding of No Significant Impact
    (FONSI), a required determination that the project does not have significant impacts on the
    quality of the environment. 7

    The preferences of CAIs for fiber over microwave, based on overall reliability, compelled
    ENA to propose substantial route and infrastructure changes. These route modifications
    resulted in the minimization of microwave infrastructure, the maximization of existing fiber
    leases, and the addition of new fiber build. ENA’s revised network design thus includes a
    total of 4,175 network miles, which includes 1,070 new fiber miles, 2,390 miles of upgraded
    and existing dark fiber leases, and 715 miles of microwave miles, connecting 223 CAIs.

    Table 2 provides a comparison of the original network design to the NTIA-approved
    revised network design. It shows a shift in project emphasis away from microwave miles to
    new, upgraded, and leased fiber-optic miles, which should provide a more reliable
    connection to the CAIs. The total network miles for the revised network design are 554
    miles less than the original network, in part because fiber-optic cable is more expensive to
    deploy and lease. Although ENA stated that it plans to eventually reach all 223 CAIs
    included in its network plan, the final network design will only be achieved if additional, non-
    grant funding is secured. At a meeting held on January 7, 2014, ENA indicated that they are
    not currently seeking other funding sources beyond that provided by Affiniti of Colorado.

    Table 2. Comparison of Original CBOCES and Revised ENA Network Designs
                                                        Original                    Revised
                                                     CBOCES Design                ENA Design
        New fiber-optic miles                                 316                     1,070
        Upgraded and leased fiber-optic miles               1,378                     2,390
        Microwave miles                                     3,035                       715
            Total miles                                     4,729                     4,175
        Number of CAIs                                        234                       223
        Miles completed, as of June 30, 2013                 2,895                    2,895
        Percent completed, as of June 30, 2013                61%                      69%
      Source: Approved Route Modification Request, ENA, NTIA




5
  That is, the existing CBOCES network upgraded with new equipment to increase network performance.
6
  Dark fiber is unused existing fiber-optic cable.
7
  A FONSI is required by regulations promulgated under the National Environmental Policy Act of 1969 (NEPA),
Pub. L. No. 91-190 (1969), 40 C.F.R. §1508. See also the answer to question 6.


                                                      5
2. What percent of the original proposed CBOCES network has been completed?
   What percent of the project as revised by ENA has been completed?

       There are multiple ways to measure completion, including funds drawn down, network
       miles completed or leased, and CAIs connected. According to the U.S. Treasury’s
       Automated Standard Application for Payment (ASAP) system, as of June 2013, ENA had
       drawn down approximately $90 million of the $100.6 million grant, yet significant work
       remains to be completed, both against the original and revised network designs.

       Amount of original CBOCES network completed. The original CBOCES network design
       included a total of 4,729 network miles, and the revised network design includes 4,175. As
       of June 30, 2013, ENA had completed 2,895 miles, which is 61 percent of the original
       network design and 69 percent of the revised network design. (See table 2 for the
       comparison of the original and revised network design.)

       The original award application stated that the awardee would connect 234 CAI locations,
       primarily by microwave. However, as we have noted, ENA’s subsequent approved route
       modification reduced the total number of CAIs to 223 locations due to the merger of 2
       CAIs and the elimination of 10 overlapping CAI locations. As of June 2013, ENA had
       reached 102 CAIs, or 44 percent of the CAIs in the original plan. ENA’s current plan is to
       reach a total of 131 of 223 CAIs with grant funds. The remaining 92 will only be connected
       if additional, non-grant funding is obtained.

       Additionally, absent the addition of non-grant funds, ENA will not complete the ring design
       contained within the original CBOCES application, which would have reduced network
       disruptions. 8 According to ENA, the ring design remains in the plan; however, a final portion
       of the ring (a section of the network over Wolf Creek Pass) will only be completed if non-
       grant funds become available.

       Amount of project completed as revised by ENA. The revised network contains 1,070
       new fiber-optic miles and 2,390 miles of upgraded and existing dark fiber leases. This is a
       substantial departure from the original network plan, which was primarily microwave and
       utilized 1,694 miles of new and leased fiber. As noted above, ENA stated that the switch
       from microwave to fiber was primarily based on the increased reliability of fiber, since
       microwave signals can be easily interrupted by weather conditions such as heavy rain, winds,
       etc. Consequently, the final network design, according to ENA, will provide a more reliable
       connection for the CAIs. As of June 30, 2013, ENA had completed 2,895 miles, which is 69
       percent of the revised network design. (See table 2 for the comparison of the original and
       revised network design.) Of the 223 CAIs, 102, or 46 percent of those included in the
       revised design, now have access to ENA’s network. Due to funding limitations, ENA
       decided to rank the remaining 121 CAIs and, as a result, will use the remaining grant funds
       to focus on 29 of them. Once ENA connects the additional 29 locations, it will have
       successfully completed 3,206 miles, or 77 percent, of the 4,175-mile revised network
       design. The remaining 92 CAIs will be connected to the network as additional funding
       becomes available. If additional funding is not received, ENA will be unable to connect them.

8
    Network rings provide alternate routes for broadband traffic in the event of failure.


                                                             6
3. Under the original grant to the CBOCES, what percentage of the network was
   to be deployed to unserved areas of Colorado? How many unserved versus
   served customers, anchor institutions, and all other government entities were
   to be reached by that network? How did those percentages and numbers
   change under ENA's initial plan? How have they changed between ENA's
   original plan and now? How many customers, anchor institutions, and all other
   government entities have signed up since the original grant award and how
   many of them were previously unserved? How many potential customers within
   reach of the network are on the Western Slope? How many of those potential
   customers on the Western Slope have signed up?

    While the CBOCES’s BTOP application makes references to serving unserved and
    underserved areas, the focus of the project is connecting to CAIs. In answering question
    three, we looked at the criteria established within the BTOP Round 2 Notice of Funds
    Availability (NOFA).

    The BTOP Round 1 NOFA, which established program rules and availability of grant funds,
    requires infrastructure projects to deliver broadband access to “unserved” and
    “underserved” areas; however, the BTOP Round 2 NOFA, in which the CBOCES (now
    ENA) award was made, does not. 9 In CBOCES’s BTOP application, CBOCES noted that
    there are 12 regional service areas (RSAs) which make up the state of Colorado. CBOCES
    classified all regions as either unserved or underserved, but none as served. While the RSAs
    were determined by the Colorado Department of Education, ENA used 2000 Census data
    (the most recent Census data available at the time of the application) to determine whether
    each RSA was served, underserved, or unserved. Ten of these regions were classified as
    underserved, while two regions were classified as unserved.

    Table 3 provides a summary of the original network, the modified network, and the portion
    of each that will reach unserved areas of Colorado.

                        Table 3. ENA Network Reaching Unserved Regions

                                 Total                  Unserved                   Percent

                          Original Revised Original Revised Original Revised

                Miles         4,729        4,175          635         515           13           12

                CAIs            234         223              40        35           17           16

              Source: ENA




9
 According to the Notice of Funds Availability for Second Round—Fact Sheet, January 2010, “NTIA no longer will
require that an infrastructure project serve an unserved or underserved area; however, they will give priority to
projects that are located in such areas and they do intend to carefully evaluate the extent to which proposed
projects overbuild existing broadband infrastructure.”


                                                         7
CBOCES network reaching unserved areas. CBOCES planned to deploy approximately
13 percent of the original network, including fiber, microwave, and CAI connections (see
table 3) to areas of Colorado identified within the application as unserved. The original
network design had the potential to reach 3,092 local Colorado government entities in
addition to 40 unserved CAI locations. The RSA map prepared by the Colorado
Department of Education shows only school districts. It does not show cities, towns, or
geographic boundaries for what is considered the Westerm slope. Therefore, locations of
potential customers are not indicated on the map, so it is unclear how many of these
potential customers are located in the unserved areas. When the CBOCES award was
transferred to ENA, no changes were made to the network design; therefore, these
numbers did not change under ENA’s initial plan.

ENA modified network. As a result of the route modifications approved by NTIA in May
2013, ENA will reach approximately 515 miles of the unserved areas.

As noted above, ENA’s route modification request reduced the number of CAI locations
from 234 to 223 due to the overlapping of 10 CAIs and the merging of 2 others. As a result,
the total number of unserved CAIs is now 35. As of July 2013, the revised network has a
potential to reach 3,450 local Colorado government entities, many of which are potential
ENA customers. This is based on the presumption that the entire network will be
completed, which will only occur if additional, non-grant funding is received.

Current customers. As of June 2013, there were 102 CAI locations that had access to
ENA’s network; 54 are current subscribers. Of the 102 locations, 11 CAIs located in the
unserved regions are currently subscribing to ENA’s services. ENA has also signed
agreements with 18 non-CAI customers, of which 5 were previously unserved. These non-
CAI customers consist of local Colorado counties, cities, and school districts. The
customers located in the unserved areas are Colorado Telehealth Network, CSU Global-
StillSecure, K2 Communications, the city of Longmont, and Wiggins Telecom.

Western Slope coverage. As of June 2013, ENA has provided network access to 23 CAI
locations residing on Colorado’s Western Slope; 2 locations currently subscribe to ENA’s
services while 6 have contracted for future ENA services. ENA’s original plan included 75
Western Slope CAIs; however, the approved route modification request reduced this
number to 74. ENA has not yet reached the remaining 51 CAIs located on the Western
Slope; therefore, it is unclear if they will subscribe to ENA’s services. Additionally, ENA has
signed agreements with 7 non-CAI customers that are located on the Western Slope.

Additionally, if fully completed, the revised network will reach 3,272 local Colorado
government entities that are also potential ENA customers. As stated above, potential
customer locations are not shown on the RSA map; therefore, it is unclear how many of
these potential customers are located on the Western Slope.




                                             8
4. Where did ENA lay fiber next to existing fiber lines? How many and what
   percentage of the fiber miles ENA has deployed overbuild existing fiber? How
   much was spent on overbuilding as opposed to new deployment?

     We found there is no generally agreed upon definition of “overbuild.” Neither the Recovery
     Act nor the two NOFAs define the term. Use of the term varies: sometimes it is used to
     mean fiber lying directly next to existing fiber, while at other times it is used to mean
     bringing service into areas that already have service. Conscious of this imprecision and
     looking to the question of laying fiber next to existing fiber lines, we focused our review on
     instances where ENA fiber and competitor fiber were in proximity to each other and could
     potentially service the same CAIs. 10 Further, due to limitations on accessing competitor
     network maps, which contain proprietary information, we based our analysis on estimations
     derived from information available publically or provided by 4 incumbent telecom
     providers 11 who have raised concerns about the implementation of ENA’s BTOP project
     and the use of grant funds for the laying of new fiber near existing fiber.

     As noted above, the modified network design approved by NTIA in May 2013 relies
     extensively on fiber, as compared to the predominantly microwave network that had been
     proposed in the application. In the modified network plan, ENA plans to lease 2,200 of the
     total 3,460 fiber miles from other carriers and will utilize 190 miles of existing ENA fiber,
     which has been upgraded with new equipment. ENA plans to lay 1,070 miles of new fiber.

     We analyzed areas of Colorado currently being serviced by 4 providers. Our analysis did
     not include fiber that was leased from other companies, microwave network miles, or fiber
     which is planned but not yet completed. Our analysis determined that ENA has newly laid
     approximately 192 miles, or 29 percent, of the new fiber in proximity to existing fiber. (See
     figure 2 for an illustration of our analysis.) This new fiber is about 7 percent of the entire
     network deployed as of May 2013.




10
   By “proximity,” we mean where ENA fiber was laid within approximately 8 miles of existing fiber and where the
beginning and end points were in the general vicinity of each other. We found that this generally follows the
deployment of ENA and competitor fiber.
11
   The telecom providers are Blanca Telephone Company, Phillips County Telephone Company, Southeastern
Colorado Power Association, and Eastern Slope Rural Telephone Association.


                                                       9
                              Figure 2: New Fiber-optic Lines
                               Laid by ENA as of May 2013:
                                660 Miles and $32.3 Million
                                                                           Proximity to
                                                                            competitor
                                                                               fiber:
                                                                             192 milesa
                                                                                29%
                                                                           $9.4 million

                 Other new fiber:
                    468 miles
                      71%
                  $22.9 million

     Source: OIG analysis
     a
       This new fiber is about 7 percent of the entire network deployed as of May 2013.

  Based on interviews with ENA and incumbent providers and the review of supporting
  documentation, we determined that, in the areas where new fiber was laid in proximity to
  existing fiber, ENA made efforts to partner with each service provider. This is
  demonstrated by ENA’s issuance of requests for proposal (RFPs) and requests for
  information (RFIs), and by dialogue between the parties, as confirmed by both sides.
  Enclosure 3 provides detail on 3 major areas where we found ENA’s market presence was
  disputed, and we noted their interaction with other companies. Our assessment was limited
  to the 4 specific incumbent telecom providers interviewed and is not a representation of
  the whole state. The overall mileage amount of fiber laid in proximity to existing fiber could
  be higher for the entire state.

  At a July 2013 meeting with OIG, ENA reported that it has laid 660 miles of new fiber and
  estimated that the average cost of the new fiber was approximately $49,000 per mile. Based
  on these estimates, we determined that, for the area covered by our review, approximately
  $9.4 million was spent to deploy 192 miles in proximity to existing fiber. This number
  would likely have been higher if we had been able to compare all the miles of fiber laid by
  ENA. The analysis was limited due to lack of access to statewide competitor network maps.

5. How much of the original $100.6 million grant remains uncommitted? How
   much has been committed but remains to be disbursed? What are ENA's
   current monthly expenses? What is their current monthly revenue?

  We found that, as of July 1, 2013, ENA had expended approximately $90.0 million in grant
  funds, leaving $10.6 million of undisbursed funds to complete the project. ENA stated that a
  planned cash match to the grant, in the form of loans, became unavailable and reduced the
  amount of cash available for the network by approximately $25 million. (For more
  information on the matching funds, see our response to question 6 below.) Because of the
  cash reduction, as well as the request from the CAIs for fiber instead of microwave, ENA
  has adjusted the project, reducing the number of CAIs to be reached with grant funding.


                                                    10
   As of June 2013, ENA estimated that approximately $5.9 million of the available grant funds
   not yet disbursed were committed to work that has already been completed or for which a
   contract has already been signed. The remaining $4.7 million, which is not yet committed,
   was expected to be used to complete specific portions of ENA’s network. Table 4 provides
   a summary of grant funds and their status as of July 8, 2013.

   ENA provided us with preliminary financial data for its fiscal year (FY) 2013 (July 1, 2012–
   June 30, 2013). Based on that data, we determined that ENA’s monthly expenditures
   average $273,068; its average monthly revenue is $94,799. On June 28, 2013, ENA provided
   its pro-forma projections, which included a plan to address the shortfall and forecasted a
   decrease in expenses for FY 2014 due to lower office space cost (ENA is currently seeking
   lower-cost office space) and an expected decrease in personnel costs (ENA expects a
   significant decrease in salaries, wages, and benefits after October 2013 due to the
   completion of much of its network). Additionally, ENA issued an invitation to negotiate
   (ITN) in May 2013, which sought proposals for an entity to operate the network. The ITN
   process is now completed and a network operator has been selected. As a result, ENA
   expects to realize a decrease in operating costs.

                    Table 4. Expended, Committed, and Uncommitted
                     ENA BTOP Grant Funds (in Millions of Dollars)

              Description              Expended        Committed           Uncommitted   Total

       Federal funds drawn                   90.0                                         90.0
       Estimated future draws                                 1.4                          1.4
       Contracts                                              4.5                          4.5
       Pending agreements                                                          3.4     3.4
       Other planned expensesa                                                     1.3     1.3
           Total                            90.0              5.9                  4.7   100.6
      Source: U.S. Treasury ASAP system and ENA
      a
        Includes administrative, engineering, equipment, circuit, and closeout costs.

6. Have the terms of the grant been upheld by ENA in contracts with private
   businesses to ensure sustainability? Have the terms and conditions of the
   contracts with all proposed customers been satisfied—including those requiring
   matching contributions? If not, why not?

   With regard to upholding agreements with customers, meeting matching requirements, and
   complying with the terms of grants, we found the following:




                                                       11
     Upholding contract and satisfying customers. We are unaware of any situations in which
     ENA is not meeting its commitments to customers. As part of the BTOP equipment audit 12
     currently being completed by OIG, we conducted interviews with 12 school representatives
     currently subscribing to ENA’s network to determine if the schools were satisfied with
     their services. In all instances, the school representatives stated that they were receiving the
     services they expected. Based on these interviews, we determined that ENA is satisfying its
     contracts with customers.

     Matching requirements. Only partners included in the application for the BTOP award
     pledged matching cash and in-kind contributions. However, we have noted that ENA has
     requested, and NTIA has approved, a change in the source of matching contributions. This
     occurred because matching contributions contained in the application for the award were
     no longer available for the project. Only the composition of the match, not the total
     amount, changed.

     Revised grant match. In the initial award, ENA listed 11 different sources of cash and in-
     kind match contributions totaling $34.7 million. The cash match of approximately $22
     million was comprised of cash contributions and loans, which later became unavailable due
     to ENA’s inability to meet the lender’s requirements. On April 23, 2013, ENA submitted an
     Award Action Request (AAR), which requested a move to a single-source, in-kind match
     provided by the Colorado Department of Transportation (CDOT). In an agreement dated
     May 8, 2012, CDOT had agreed to grant, free of charge, access to Rights-of-Way (ROWs),
     which allowed ENA to lay fiber in the ROW areas. At the time of the AAR approval on May
     7, 2013, the agreement was already in place, and ENA had laid much of the fiber in the
     ROW without incurring costs that would have otherwise been required if the agreement
     had not been negotiated. ENA was not required to provide or gain approval for additional
     match secured beyond what was noted in the approved award; therefore, the value of the
     ROW had not been assessed or claimed as match until the original cash match was no
     longer available. ENA engaged a private firm to assess the value of the ROW, and the firm
     determined that the value of the ROW, approximately $39 million, exceeded the match
     requirement of $34.7 million. ENA requested, and the NOAA Grants Office subsequently
     approved, the change to a single-source match.

     Noncompliance with grant terms and conditions. The terms and conditions of the ENA
     grant, contained in special award conditions (SACs) that are assigned to each grant, do not
     require contracts with private businesses. The SACs for the ENA grant address areas
     including compliance with reporting, environmental assessment, match, and other applicable
     regulations. The NOAA Grants Office uses these SACs to determine if the grant recipient
     is in compliance with the grant terms.

     The Grants Office suspended ENA’s grant on December 6, 2012, for material non-
     compliance with the Environmental Assessment (EA) SAC. The EA SAC required that any

12
  OIG project number BTOP000156, BTOP Equipment Review, to (1) determine whether NTIA has the personnel
and processes in place to effectively monitor grantees’ equipment acquisitions, (2) assess whether grantees have
appropriately acquired, tested, and implemented the most effective equipment, and (3) evaluate whether grantees
are on track to complete the BTOP projects on schedule and achieve project goals.


                                                       12
   modifications of the approved project scope be submitted to and approved by NTIA prior
   to the implementation of the modifications. As part of its approval process, NTIA reviews
   the changes and completes an EA, which is required by NEPA. Without NTIA approval as
   required by the EA SAC, ENA modified their network design when it moved from a
   primarily microwave network to a predominantly fiber-based network. Additionally, ENA
   changed certain network routes to alter the path where fiber would be laid to reach the
   planned CAIs, which also required NTIA approval to ensure compliance with ENA’s EA
   SAC. After the NOAA Grants Office suspended the grant, ENA submitted a modification
   approval request to include all network route modifications. NTIA completed the required
   EA, approved the project changes, issued a FONSI, and recommended that the NOAA
   Grants Office lift the grant suspension, which it did in April 2013.

   Ensuring sustainability is a concern. In October 2013, ENA selected a partner to help it
   manage network operations and provide additional capital to complete portions of the
   planned network that cannot be completed with grant funds. (ENA will retain ownership of
   the BTOP-funded portion of the network.) In the ITN issued May 6, 2013, ENA states that
   the network operator will assume day-to-day operations of the network. Further, the ITN
   stated that ENA was “seeking for the Network Operator to provide an initial capital
   investment of [$8 million] that will be used towards completing the network consistent
   with [ENA’s mission], building out Customer connections and other working capital
   requirements.” ENA’s belief is that this arrangement will improve sustainability by leveraging
   the expertise and economies of scale of existing service operators. In an announcement
   dated October 22, 2013, ENA stated that it had reached an agreement with Affiniti of
   Colorado. ENA’s sustainability will depend on its ability to sign up customers, some of
   which may have existing agreements with service providers that have already invested in
   networks to service specific areas.

7. What is the proposed schedule for future build out with the unallocated funds?
   Where will deployment occur? When would deployment under ENA’s revised
   plan be complete and when will customers, anchor institutions, and all other
   governmental entities have access to broadband services?

   As noted in Table 4, ENA had $10.6 million of unspent grant funding as of July 1, 2013, with
   only $4.7 million of those funds uncommitted. At that time, we found that 102 CAIs and 2
   additional customers currently have access to ENA’s broadband service. Of those, 56
   currently subscribe to ENA’s service or ENA has won the contract to provide future
   services.

   The NOAA Grants Office approved ENA’s request to extend its grant period from August
   31, 2013, to December 2014, at which time services are projected to be available to 29
   additional school districts on the Western Slope, as well as other customers located near
   the CAIs. This should bring the total number of CAIs that can be connected using existing
   BTOP grant funds to 131. As we have noted, our understanding is that as additional funding
   becomes available, ENA will extend service to the remaining 92 CAIs.




                                               13
    We met with NTIA and ENA to discuss the project schedule for connecting the remaining
    CAIs. NTIA stated that ENA prioritized them based on the estimated cost to complete the
    connections, core network requirements, the status of construction already begun, and
    established E-Rate contracts. 13 Additionally, ENA focused on leveraging economies of scale
    that could be realized by including schools in close proximity or on the same route. ENA
    stated that, for the remaining grant funds, it will focus on connecting 29 school districts in
    the Western Slope region.

    At a July, 2013 meeting, NTIA stated that work has begun at 16 of 29 locations (6 involve
    heavy construction, 6 involve negotiation of indefeasible rights of use agreements, 14 and 4
    involve microwave connections), and construction was scheduled to begin at 2 more
    locations in August 2013. The remaining 11 are on hold pending fiber lease negotiations
    with an incumbent provider. Table 5 lists the school districts that have been prioritized for
    completion with existing grant funds.

                 Table 5. Colorado School Districts Prioritized by ENA for
                              Connection Using BTOP Funds

                                              School Districts
        Aguilar Reorganized 6             Huerfano RE-1                    Ridgway R-2
        Alamosa RE-11J                    La Veta RE-2                     Salida R-32
        Buena Vista R-31                  Mancos RE-6                      San Luis BOCES (Alamosa)
        Center 26 JT                      Meeker RE1 (Meeker, CO)          Sangre de Cristo RE-22J
        Cotopaxi RE-3                     Moffat 2                         Sargent RE-33J
        Custer County C-1                 Moffat County 1                  Sierra Grande R-30
        Del Norte C-7                     Monte Vista C-8                  Silverton 1
        Dolores County RE2                Montezuma RE-1                   Steamboat Springs RE-2
        Dolores RE-4A                     Mountain Valley RE 1             Uncompagre BOCES
        Hoehne Reorganized 3              Ouray R-1
        Source: ENA

    NTIA has approved ENA’s request for an extension of its grant period, which will allow it
    additional time to connect the 29 prioritized schools with its remaining grant funds. At this
    writing, ENA had provided the following summary regarding the 29 prioritized schools:




13
   E-Rate is a program supported by the Federal Communications Commission’s Universal Service Fund for schools
and libraries. The purpose of the program is to help schools and libraries to obtain affordable telecommunications
services, broadband Internet access, and internal network connections.
14
   Indefeasible Rights of Use (IRU) refers to the exclusive right to use a specified amount of fiber capacity for a
specified amount of time.


                                                        14
       •   21 of the 29 have been completed.
       •   ENA is working on wireless connections for 4: Buena Vista, Salida, Custer County,
           and Cotopaxi. With the exception of Cotopaxi, these should be completed by
           December 31, 2014.
       •   Agreements are being negotiated for 3: Dolores, Mancos, and Steamboat Springs,
           which should be completed by December 31, 2014.
       •   ENA continues to work on connecting Silverton to the network.

   In addition to reaching the 29 priority school districts in the Western Slope, ENA planned
   to connect an additional 11 facilities during the 2013 construction season. These 11 facilities
   are shown in table 6. At this writing, NTIA reports that ENA has completed connections to
   9 of these sites, is in the process of connecting Eaton School District RE 2, and has
   cancelled its plans for Galeton.

       Table 6. School Districts to Be Connected by ENA Using BTOP Funds

                                         School Districts
                 Ault-Highland SD (Weld RE 9)     Galeton
                 Burlington                       Limon Public Schools RE 4J
                 Cheyenne Wells                   Northeast Colorado BOCES
                 East Central BOCES               Widefield School District 3
                 Eaton School District RE 2       Yuma School District – 1
                 Elbert School District 200
                 Source: ENA

Additional Findings

The ENA award is a complex grant and has experienced numerous challenges. As part of our
review, we found that two-thirds of the grant funds had been spent before NTIA addressed
violations of the grant terms and conditions that resulted in suspension of the award. ENA faces
additional challenges, including the project’s inability to fully achieve the award’s intended
results and continued internal control issues. We found that the project will involve additional
miles of constructed and leased fiber, with some of the completed fiber being laid in proximity
to existing fiber.

Additionally, we determined that ENA did not lay new fiber to connect Agate schools. This is a
topic that received attention in the press, at the February 2013 House subcommittee hearing
on broadband grants, and is noted in your May 9 letter requesting us to review this award,
where it was highlighted as a specific example of ENA’s improper administration of the grant.
ENA leased fiber to complete a short lateral connection from its main network route to Agate,
which provides an alternative should Agate schools choose to alter their current service plan.




                                               15
    A. Implementation of the award has been challenging, and two-thirds of the
       grant funds had been spent before NTIA addressed the problems that
       resulted in its suspension.

        NTIA provided early and continued oversight of the ENA award (see figure 1 for
        chronology of NTIA’s grant oversight.) Nonetheless, the issue that prompted the
        suspension of the award—that is, early, material changes in design and routing—was
        only identified, and corrective action initiated, well into implementation of the award. 15
        It wasn’t until NTIA reviewed ENA’s response to the Corrective Action Plan (CAP) in
        September 2012, at which point ENA had already drawn down $66.1 million, that the
        bureau noted that required approvals had not taken place. The terms and conditions of
        the grant required ENA to have already submitted the route change request and for
        NTIA to have issued a FONSI, the required environmental assessment without which
        the award cannot go forward.

        We met with NTIA regarding the time lag between NTIA’s awareness of the problems
        with environmental and historic compliance and the suspension of the award. NTIA
        senior officials responsible for the award said that they were addressing other issues
        (i.e., financial management controls and match) and that ENA’s unapproved route
        modifications did not rise to the level of award suspension. Our review found that NTIA
        had provided substantial oversight of the award, but that earlier action should have been
        taken on environmental and historic preservation issues associated with route changes.

    B. ENA faces additional challenges.

        ENA continues to face challenges in award execution and administration.

        1. ENA will not provide the network coverage intended in the initial design. As
        noted above, ENA had planned to reach 234 CAIs. Due to the change in network
        design, modification of the CAI list to include only 223 sites, and subsequent
        prioritization of CAI sites, ENA will now only reach 131 CAIs with grant funds. More
        specifically, ENA has determined that it will prioritize connecting 29 Western Slope
        school districts. The remaining 92 CAI sites will only be connected if non-grant funding
        is secured. Affiniti of Colorado, as part of its agreement with ENA, will provide funding
        to expand the network beyond this grant period. At this writing, ENA does not plan to
        complete the original ring design, which would have reduced network disruptions.

        2. Weaknesses in ENA’s financial internal controls remain. ENA’s independent
        auditor’s report for the year ending June 30, 2012, identified material weaknesses 16 with
        internal controls over financial reporting. Specifically, the report found that ENA did not
        monitor grant and non-grant disbursement coding, which resulted in some non-grant

15
   Under the terms of the suspension, ENA could continue to operate on a reimbursement basis, allowing it to pay
staff and vendors, although it was not permitted to proceed with construction.
16
   A material weakness is a deficiency, or a combination of deficiencies, in internal control such that there is a
reasonable possibility that a material misstatement of the entity’s financial statements will not be prevented, or
detected and corrected, on a timely basis.


                                                        16
expenditures being recorded in the grant expense account. ENA did not correct the
error until after it was identified by the external auditor. The report also found that
ENA did not have a structure in place to ensure proper prior approval of grant fund
drawdowns and the maintenance of supporting documentation. The report noted that
the same issues had been identified the previous year.

During our review, we analyzed detailed FY 2013 financial data and noted continuing
inconsistencies resulting from poor internal financial controls. For example, ENA
provided us with two financial reports for the fiscal year ending June 30, 2013. They
provided one in mid-June, just prior to close-out for the year, and another in mid-July,
which should have closed out the year. While the two reports should show identical
monthly results for the 11 months through the end of May 2013, the monthly totals in
the two reports did not match. In response to our request for clarification, ENA stated
that they do not close their financial records for prior months and that the
discrepancies between the two reports were due to adjustments that had been made to
all prior months after the mid-June report had been compiled. In a subsequent
communication with ENA, we were informed that an internal financial review showed
the need for additional adjustments. In order to strengthen internal financial controls,
increase the accuracy of financial reporting, and decrease the risk of inappropriate
manipulation of financial information, corrections should be made in a timely manner
and financial records closed out each month, consistent with conventional financial
reporting best practices.




                                        17
Enclosure 2: Objectives, Scope, and Methodology

We were asked to respond to 7 questions posed by Congress. In order to answer the
questions competently, we established five objectives for our review. These objectives included
determining: (1) if ENA’s network design changed after the transfer of the grant from CBOCES
or during the grants administration; (2) how much of the project has been completed and what
is planned with the remaining grant funds; (3) if ENA has laid fiber-optic cable next to existing
fiber; (4) the amount of monthly expense and revenue recorded by ENA; and (5) if grant terms
and conditions of the grant are being met. In answering these questions, we also identified
findings that we are reporting.

The scope of the review was NTIA’s BTOP grant number NT11BIX5570001 made to ENA.
The total estimated cost of the grant was $135,300,777, comprised of $100,635,190 in federal
share and $34,665,587 in required cost share, in this case largely comprised of in-kind
contributions. The performance period of the grant is from September 1, 2010, to December
31, 2014. We conducted our review from May 2013 through July 2013.

The methodology included:
      •   interviewing ENA project, NTIA program, and NOAA Grant Office officials;
      •   reviewing the original CBOCES grant application and award documents, grant
          transfer documentation, and project design modification approval requests;
      •   reviewing performance and NTIA site visit reports and other documentation
          associated with NTIA’s oversight;
      •   interviewing concerned parties; and
      •   reviewing network design maps.

We reviewed internal controls significant within the context of the review by interviewing ENA
officials. We found that corrective actions are needed to improve internal controls. These
issues are discussed in the “Additional Findings” section of Enclosure 1.

We did not rely on computer-processed data. Instead, we reviewed documentation submitted
by the grant recipients; therefore, we did not test the reliability of information technology
system controls.

We performed fieldwork at NTIA headquarters in Washington, DC, and the ENA business
offices in Broomfield, Colorado. Our work was performed in accordance with the Quality
Standards for Inspections (January 2012) issued by the Council of the Inspectors General on
Integrity and Efficiency. These standards require that we perform work to obtain sufficient
evidence to support the findings contained herein. We believe the evidence obtained provides a
reasonable basis for the findings. The review was conducted under authority of the Inspector
General Act of 1978, as amended, and Department Organizational Order 10-13 (April 26,
2013).




                                                18
Enclosure 3: Three Major Areas Where ENA’s Market Presence Was Disputed

  Northeast Quadrant: Overlap with Phillips County Telephone Company (PC Telcom)
     •   Approximately 90 miles of new fiber built by ENA near existing fiber.
     •   PC Telcom did not respond directly to the dark fiber RFI or RFP from ENA. PC
         Telcom did respond via Colorado Communications Transport response. However,
         the proposal offered lit fiber (that is, fiber already in use), which was allowable but
         not preferable per NTIA guidance.
     •   PC Telcom currently has a 3-year partnership agreement with ENA to provide
         service to CAIs in the northeast region. However, long-term partnership
         agreements have not yet been reached due to disagreements on terms and
         conditions of the agreement.
     •   PC Telcom did not provide ENA with its network maps.
     •   ENA stated that the proposal presented by PC Telcom for partnerships were more
         costly than constructing new fiber.

  Southeast Quadrant: Overlap with Southeastern Colorado Power Association (SECOM)
  and Eastern Slope Rural Telephone Association (ESRTA)
     •   Approximately 22 miles of new fiber built by ENA near existing fiber.
     •   ENA’s initial network design suggested that this portion of the network would
         primarily be microwave, which did not pose concerns for local providers. However,
         ENA’s current design shows that the network is primarily leased fiber, with portions
         newly constructed.
     •   Both SECOM and ESRTA responded to the RFI; however, the proposals submitted
         did not meet the requirements of the RFI, as the proposals offered only lit fiber or
         included non-compete clauses, which are not allowed by program regulations.

  Southwest Quadrant: Overlap with Blanca Telephone Company (BTC)
     •   Approximately 80 miles of fiber built by ENA near existing fiber.
     •   ENA stated that RFI for dark fiber was sent to BTC. However, BTC claimed that
         they did not receive it and therefore did not respond to it.
     •   ENA and BTC agree that communications have been ongoing to try and reach an
         agreement to allow partnering which would include leased fiber from each other for
         redundancy (i.e. backup) purposes.
     •   ENA noted that at the time of the grant application and award, BTC did not have
         fiber in this area. However, ENA stated that BTC had constructed some portions of
         fiber lines prior to the grant award.




                                              19
